March 2012
Dear Law Enforcement Professional,
During the 20 I0 Census, over 700 acts of violence against Census Bureau employees were
reported throughout the United States. These included the discharge of firearms at and physical
assaults of Census takers, as well as robberies, carjackings, and kidnapping of these dedicated
civil servants. While some crimes were ultimately investigated and successfully prosecuted,
others were not.
The data collected by Census employees contribute to the most significant statistical reports
used by American businesses and government entities. During the 20 I0 Census, nearly half a
million Census employees worked in neighborhoods throughout our nation. Between decennial
censuses, however, thousands of other Census employees continue to work in your community
nearly every day gathering data for other essential economic, labor, and demographic purposes.
Pursuant to Title 13 of the United States Code, Census employees are expected to approach
homes and businesses seeking this information, and property owners are expected to provide
such information ( 13 USC §223). Most survey requests seek voluntary participation; one, the
American Community Survey, has mandatory participation under the law.
The Office of Inspector General (OIG) at the U.S. Department of Commerce is a federal law
enforcement agency within the Commerce Department, which is also home to the Census
Bureau. This letter seeks your assistance in keeping our Census Bureau workers safe by
aggressively pursuing prosecution of violent crimes against them and their property. While
assault of a Census employee is also a federal crime, it is most often successfully prosecuted
at the local level. For instance, a state grand jury in Georgia recently indicted a man for assault
and destruction of property involving a Census employee on the job. The defendant allegedly beat
and stabbed the employee with a knife, and damaged the employee's car including slashing a tire.
As a law enforcement professional, you know the inherent safety and security uncertainties
of approaching a residence or establishment, yet this is what is expected of Census employees
on a continual basis. Although the vast majority of residential and business property occupants
are cooperative and helpful, the risk of hostility toward Census workers exists nonetheless.
Accordingly, we ask that you and your organizations aid in the detection, reporting, and
prosecution of crimes of violence against Census workers.
Thank you for sharing this letter with your officers and deputies, and we encourage you
to contact OIG any time via its hotline: 1-800-424-5197.
Sincerely,




Todd J. Zinser                                        Robert M. Groves
Inspector General                                     Director
U.S. Department of Commerce                           U.S. Census Bureau
